                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                       Inspection of
                                                  the Tri-Mission Vienna
                                                 Joint Management Office


                                                 Report Number ISP-I-12-19A March 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors.

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                 1
Joint Management Office Operations                            2
  Memorandum of Agreement                                     4
  Space Management                                            5
  Human Resources                                             6
  Facilities Management                                       8
  Language Designated Positions                               8
  Motor Pool                                                  9
  Tri-Mission Housing and Housing Maintenance Services        11
  Procurement                                                 12
  Shipping                                                    12
  Financial Management                                        12
  International Cooperative Administrative Support Services   13
  Travel                                                      13
  Global Publishing Solutions                                 14
  Information Management and Information Security             14
Equal Employment Opportunity                                  19
Quality of Life                                               20
  Community Liaison Office                                    20
  Health Unit                                                 21
(b)(5)(b)(6)                                                  21
  American Employee Association                               21
Management Controls                                           22
  American Employees Association Internal Controls            23
List of Recommendations                                       25
List of Informal Recommendations                              28
Abbreviations                                                 29




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Key Judgments
    •     Service quality and timeliness meet established customer service standards, but
          customers are dissatisfied with the joint management office (JMO). Realigning
          responsibilities and developing direct communications with the service providers should
          allay concerns that the office does not provide equal service to all of its customers.

    •     The U.S. Mission to the Organization for Security and Cooperation in Europe (USOSCE)
          has operated for decades in an unsafe and insecure facility that impedes efficient
          operations. The Department of State is negotiating a lease with an identified commercial
          developer in order to relocate the mission at the earliest possible date.

    •     The information management program is improving, after a period when curtailments and
          extended staff vacancies led to poor service.

    •     In the JMO, overstaffing exists in two areas and understaffing in another.

      The inspection took place in Washington, DC, between September 12 and 29, 2011, and in
Vienna, Austria, between October 3 and November 17, 2011. The members of the team were
(b) (6)




        This report on Tri-Mission Vienna should be read in conjunction with the separate 2011
inspection reports on Embassy Vienna, the U.S. Mission to International Organizations in
Vienna (UNVIE), and USOSCE. Those reports contain the resource charts for each mission and
mention areas in political/economic and public diplomacy work where greater collaboration
among missions would advance U.S. objectives more effectively. For the most part, however, the
agendas, objectives, and interlocutors of the three missions are quite distinct; even the home
bureau in Washington differs for one mission, while two different parts of the Bureau of
European and Eurasian Affairs manage the other two missions.

       By an overwhelming majority, most of the cases calling for recommendations for
improvements in Vienna stem from issues concerning the provision of management services, or
perceptions that problems exist in this arena. Consequently, this separate report focuses on
management services exclusively.




                                             1
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Joint Management Office Operations
        The JMO, located mainly in the chancery and annexes of Embassy Vienna, provides
management services to the embassy, UNVIE, and USOSCE. Its organizational structure
includes: a full-time management counselor, senior general services officer, assistant general
services officer, human resources officer, assistant human resources officer, information
management (IM) officer, facilities management officer, and financial management officer – all
of whom work out of Embassy Vienna-based offices. In addition, there is one part-time JMO
management officer located at each of the multilateral missions, each of whom works part-time
and is supported by a full-time, local employee.

        Perceptions about unequal service have persisted since the inception of the JMO in 1994.
To dispel the notion of unequal service, in 1994 the JMO positioned a management officer to
work about 18 hours per week at each of the multilateral missions. In 1996, the OIG team
conducted a special review of the JMO and found services to be equally distributed among the
missions. Complaints have continued, nevertheless. UNVIE and USOSCE each would like to
have a full-time, dedicated management officer, but this arrangement is contrary to the JMO
concept. In 2007, the OIG team reiterated its view that having full-time, dedicated management
officers at UNVIE and USOSCE would undercut the rationale for a JMO and would result in
unnecessary expenditures.

        The full-time management counselor works hard to comply with regulations, and each of
the JMO section heads works to satisfy requests within guidelines and timeframes. The JMO
benefits from the services of a highly qualified locally employed staff. The 2011 OIG team
reviewed JMO records and found the quality and timeliness of services the same for each of the
three missions’ staffs. In this era of eServices and email, mobile communications facilitate
equitable provision of services, regardless of location. The OIG team reviewed JMO records and
found the quality and timeliness of services the same for each of the three missions’ staffs;
eServices requests are tracked, and the timeliness is within standards.

        Directing and guiding the tri-mission JMO is problematic, however, since UNVIE and
USOSCE are located separately from the JMO offices. Often, unexpected requests and
requirements from the bilateral embassy and the multilateral missions are difficult to address in
the instant. Communications, special and nonstandard requests, and staffing capacities also have
been challenging. The JMO leadership faces a number of unresolved issues that require forceful
and thorough problem-solving approaches. The OIG team discussed adjustments to structural,
supervisory, and management control issues with the management counselor. The management
counselor had been frustrated by the apparent intractability of the issues facing her and was thus
open to new ideas.

        Following Department guidance on post organization (2 FAM 112.1 b.), Embassy Vienna
leaders see the JMO as an integral part of the embassy and describe its function as providing
management services to all three missions. In contrast, many staff members and the leaders of
UNVIE and USOSCE see—or would like to see—the JMO as an entity that is separate from the
embassy and is equally accountable to each of the three missions. (b) (5)

                                           2
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

(b) (5)



        At the heart of many of the perception problems regarding the delivery of management
services to the customers in the tri-mission community is the difference of views among the three
missions about the “ownership” of the JMO. Reaching a shared understanding regarding the
JMO’s ownership and supervision will go far to create a better sense of fairness regarding the
distribution of the JMO’s time, services, and attention.

        According to the COMs and deputy chiefs of mission (DCM) at the multilateral missions,
the JMO does not meet their expectations. For example, incoming staff are often placed in
temporary housing, instead of moving directly into their permanent residences. The JMO has
attempted to mitigate this problem by assigning housing as soon as the information about an
arrival reaches the JMO. However, the need to vacate the housing compound to prepare for its
demolition and the time consuming process of finding new rental residences within space and
cost ceilings prevented the JMO from being able to place staff in permanent residences when
they arrived. The urgency to lease new apartments as the vacated housing compound apartments
became unavailable led to some longer-than-usual temporary housing assignments for
newcomers. In addition, landlords often take longer to prepare residences than anticipated. The
JMO notifies incoming staff about their assignments, but on occasion something unexpected in
the make-ready occurs, and the JMO may not have sufficient information, or may not have it
early enough, to alert incoming employees about the resulting occupancy delays.

        The OIG team believes a review of the management officer’s position description, adding
supervisory tasks and removing the requirement to spend a prescribed amount of time at the
multilateral missions, would yield a more efficient outcome. Elsewhere in this report, the OIG
team recommends eliminating the assistant human resources officer position, which is not
needed. With that change in staffing, the new, more direct supervision of subordinate staff by the
management officer will help the section sort through priorities and unexpected projects.

        The OIG team does not support the management counselor’s proposal that the JMO
employ an eligible family member as a customer service liaison to work part-time at each
mission. Similar to the position of the part-time management officer in each mission, a liaison
position would likely engender delays. An eligible family member would need months to
become familiar with JMO functions and responsibilities and Department programs and systems.
In addition, alterations and a down-grade to the position of the JMO locally employed staff
member at USOSCE make this proposal more questionable.

        The OIG team observed that six to eight JMO employees attend the UNVIE and
USOSCE weekly staff meetings. The OIG team counseled that it was more efficient for a
rotation of just two JMO employees to attend UNVIE and USOSCE staff meetings, unless
specific projects or issues call for wider participation at that meeting. Instead of attending the
UNVIE and USOSCE staff meetings, the other four JMO employees would engage more
productively in the delivery of services.



                                            3
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The JMO management officer answers questions and works to provide the best quality
service, but he does not have direct supervisory authority to expedite services. JMO’s local and
direct-hire staff members provide the services. International Cooperative Administrative Support
Services (ICASS) standards set timelines and goals for services. The JMO meets the ICASS
published standards for all missions equally. More use of eServices could speed response times.
The OIG team observes that the management officer’s intermediary, nonsupervisory role causes
delays by misinterpreting problems that need attention.

Recommendation 1: Embassy Vienna, in coordination with the Bureau of Human Resources,
should modify the work requirements for the tri-mission management officer (position number
50006000) and designate the position as the deputy management officer, adding supervisory
duties to the position and deleting the requirement to serve part-time at each of the missions.
(Action: Embassy Vienna, in coordination with DGHR)

       The OIG team discussed with UNVIE and USOSCE staff the idea of arranging targeted
meetings with JMO local employees in order to clarify misunderstandings among the former
about who in the JMO is providing which services. Such information can improve accuracy in
the way requests reach the service providers and improve the timeliness of performance.

       Informal Recommendation 1: Embassy Vienna’s tri-mission joint management office
       should conduct targeted meetings with tri-mission staff to introduce them directly to the
       service providers and to explain their roles and responsibilities.

Memorandum of Agreement

       The memorandum of agreement among the three missions, signed in 1994, reflects the
conditions at that time. It does not include the current methods of communicating and conducting
business, including eServices and other computer-driven enhancements. Further, it reflects the
time when USOSCE and UNVIE were colocated. Online communications and near-instant
responses make less important the need for a dedicated missions’ management officer.

         While there are no standard criteria to manage updates to agreements, a 17-year-old
document does not meet the needs of today. Preparing a new agreement that reflects the use of
electronic processes and the current staffing and locations of the tri-mission would improve
expectations regarding services delivery. If all three missions became equally involved in
rewriting the memorandum of agreement, it would provide the impetus for a fresh start, for both
service providers and recipients. The question of the JMO’s ownership requires new
consideration and a shared understanding. The OIG team discussed with the leadership of all
three missions the desirability of the missions taking collective responsibility for the JMO’s
success, including communicating with their respective communities about how the JMO is
organized, encouraging their staffs to put past problems behind them, and lending support to
efforts to improve the communication and resource allocation challenges JMO faces.

Recommendation 2: Embassy Vienna, in coordination with the U.S. Mission to International
Organizations in Vienna, the U.S. Mission to the Organization for Security and Cooperation in
Europe and the Bureau of European and Eurasian Affairs, should redefine management and
                                          4
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

administrative requirements; define evaluating and reviewing performance, and procedures and
processes for the joint management office; and sign a new memorandum of agreement codifying
these operations of the joint management office. (Action: Embassy Vienna, in coordination with
UNVIE, USOSCE, and EUR)

Space Management

Embassy

       American staff members work in many locations throughout Vienna: in addition to the
main buildings of each of the three missions, annexes include a warehouse; a long-term, leased
property for motor pool and facilities maintenance that the U.S. Government has occupied since
1951; the consular section and other offices at a U.S. franchise hotel; and leased office space
adjacent to the chancery. There are also plans to move USOSCE to a yet-to-be constructed
building.

        There continue to be serious safety shortcomings and substantial maintenance costs for
multiple locations, which would be reduced if the JMO assigned space more judiciously,
especially in the bilateral chancery. For example, the chancery contains an Ambassador’s dining
room and associated kitchen, used occasionally for representational luncheons. The COM
residence has representational space that serves the same function. Using the chancery dining
room reduces commuting time for the Ambassador and section heads, but it is not a cost–
effective use of the chancery, which needs more office space. (b) (5)
                                                       In another example, the JMO management
office is in a costly classified area, when classified space is not necessary. As an added benefit,
moving that office to unclassified space would allow local staff to access the management
counselor without an escort. Current renovations to install a chancery entrance elevator to meet
Americans with Disabilities Act requirements will require the demolition of the chancery dining
room and kitchen and the adjacent classified space.

Recommendation 3: Embassy Vienna, in coordination with the Bureau of Overseas Buildings
Operations, should determine the best use of chancery space and recommend changes and moves
that maximize space and minimize cost, consistent with security and information technology
guidelines. (Action: Embassy Vienna, in coordination with OBO)

U.S. Mission to International Organizations in Vienna

         UNVIE could use its space more efficiently. For example, five interns use a large
window office, which is inappropriate given the high-priority need for office space for full-time
employees. The OIG team discussed the interns’ office, and the JMO agreed to locate each new
arrival in more appropriate, lower-priority space. This accommodation will enable JMO to use
the window office for administrative purposes. It will also provide the community liaison office
(CLO) with private space when there is need, pursuant to 2 FAM 113.7-4 (5), to engage in
counseling or confidential discussions with UNVIE employees.



                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Proposed Relocation of the U.S. Mission to the Organization
for Security and Cooperation in Europe

         For decades, the USOSCE office has been located in a large, shabby apartment building
with other tenants. The 2000 OIG report noted that USOSCE’s unsuitable office space impeded
efficient operations. Between 2000 and 2005, the Bureau of Overseas Buildings Operations
(OBO) visited Vienna and surveyed at least 15 properties as alternative sites for the USOSCE
office; in 2006, OBO and the Bureau of Diplomatic Security looked at four additional properties.
In 2007, OIG (including its security oversight component) concluded that USOSCE should
remain at the current location, because its security posture could be improved more quickly there
than at any of the other proposed locations; at the time of the 2007 inspection, security
enhancements, heating modifications, and fire alarm and fire suppression system installations
were underway. Additional security and fire safety enhancements were underway in 2011 during
the OIG inspection.

        In 2010, OBO decided to move USOSCE to a yet-to-be constructed, 38-story office
building. At the time of the 2011 OIG inspection, USOSCE had not yet signed a contract, but
plans indicate that the U.S. Government will lease space on the top two floors of the new
building. Several agencies that have had representatives in USOSCE for decades have given
indications that they will not continue their presence in Austria because of relocation expenses
and anticipated expensive lease costs.

       The initial cost for fit-out will be $32 million. The developer and OBO are in negotiations
on lease costs that are not yet determined. An architectural and engineering firm is providing
oversight for the building’s public-private partnership construction. OBO has not informed the
embassy, however, regarding whether OBO, the local facilities management staff, the general
services office, or a contractor will provide construction oversight.

        According to plans for the new building, USOSCE’s communications center will occupy
1,200 square feet, based on the amount of space allotted in the current location. However, the
current communications center includes considerable (and costly) unused space. It appears that
the planners did not assess the actual space needs for a new center. Such an assessment is key, in
order to prevent USOSCE from incurring unnecessary information technology setup and other
expenses. If the center also will serve for emergency operations and storage, the plan does not
factor in the additional square footage required based on the number of personnel assigned to
USOSCE and the storage requirements for appropriate emergency supplies.

Recommendation 4: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Vienna, should reevaluate the square footage planned for the proposed communications
center for the U.S. Mission to the Organization for Security and Cooperation in Europe, and
match the square footage to actual needs. (Action: OBO, in coordination with Embassy Vienna)

Human Resources

      The JMO human resources office has a reputation for performing effectively. In 2011,
however, the ICASS customer services survey scores for the unit were below both bureau and
                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

worldwide averages. Inspectors attributed the lower scores to expectations for better service from
UNVIE and USOSCE employees. The ICASS scores also reflect dissatisfaction with the limited
opportunities for family member employment. In June 2010, Embassy Vienna signed a bilateral
work agreement with the Government of Austria. This commendable arrangement was facilitated
by outstanding coordination among the Ambassador, the human resources unit, and the
Department’s Office of the Legal Adviser. The conclusion of a bilateral work agreement,
however, may not dispel complaints among eligible family members, who still will face
difficulties finding employment in the host country, due to Austria’s difficult economic
conditions and German language requirements.

        JMO’s human resources staff handles personnel requirements for all tri-mission
personnel: 235 U.S. direct-hire and 290 local employees. The supervisory human resources
officer is responsible for strategic planning and shares some of the responsibilities for direct-hire
employees. A new direct-hire position in the office, an assistant human resources officer, handles
most of the U.S. direct-hire employee portfolio and special projects. Seven local staff members,
led by an experienced and knowledgeable human resources specialist, manage the local staff
portfolio. The local staff is competent and cross-trained, and staffing is adequate for the entire
tri-mission workload.

        Since the local staff is fully competent and the senior human resources officer has a limited
portfolio that could be expanded, there is no need for the assistant human resources officer position
(number 54590007). Although the incumbent is hardworking and capable, the position is
superfluous and has had little impact on office operations. The assistant human resources officer
position was assigned to the tri-mission through the Diplomacy 3.0 initiative, not based on a
Mission Strategic and Resource Plan position request. The incumbent performs many unrelated
duties outside the human resources office, including organizing the embassy’s July 4th event – a
situation that could exacerbate UNVIE’s and USOSCE’s perception that the embassy enjoys more
services than the other missions. It also is in violation of Department regulations that state:
“Positions should be carefully planned and staffed to make the most effective use of human
resources at the lowest practical expenditure to accomplish assigned missions.” (3 FAM 2614 c.)
Placing a human resources officer in a location where those services are more needed would put
funds to better use and help allay concerns that JMO does not provide services equally among the
three missions.

Recommendation 5: Embassy Vienna, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should eliminate the assistant human
resources officer position, upon departure of the incumbent. (Action: Embassy Vienna, in
coordination with EUR and DGHR )

        The human resources office provides customary services. Its processes are, in general, in
compliance with standard operating procedures and policies are well publicized. Also, the
section provides services usually associated with different sections in other embassies. For
example, it manages the summer hire program, usually run by the CLO coordinator. The section
also trains supervisors and periodically updates attachments to the employee handbook.
However, the handbook itself is out of date (2003).


                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 2: Embassy Vienna’s tri-mission joint management office
       should update and revise the locally employed staff handbook.

        At JMO’s invitation, Regional Support Center/Frankfurt instructors provided customer
service and communications skills training to the JMO’s U.S. and locally employed staff.
Further, the staff is developing an ongoing customer service training program.

Facilities Management

        JMO’s management counselor, as the tri-mission’s only real property manager,
supervises the facilities management section. The section manages facilities at all three missions
and also is responsible for facilities management at Embassy Bratislava. The OIG team supports
the tri-mission’s Mission Strategic and Resource Plan request for an entry-level facilities
manager, to provide additional support to the JMO. With two large building projects over the
next several years, the facilities management unit will need help to continue providing ongoing
support, including maintenance and repair of the old, U.S. Government-owned residences and
dealing with issues that arise at the missions’ short-term, leased properties.

        USOSCE has a locally employed, full-time staff member with 27 years of experience
who arranges ministerial meetings for staff and performs key JMO functions. The USOSCE
personnel rely on her expertise for many tasks, especially with regard to purchase card
acquisitions.

         The JMO staff recently made changes to this staff member’s position description that
resulted in a downgrade. The changes were unanticipated and were not coordinated with
USOSCE’s U.S. supervisors or with the employee herself. The JMO is not likely to establish the
initially proposed customer service position, and therefore the JMO will need to review the
locally employed staff’s position description and add back the functions the position required
that would have gone to the eligible family member customer-service position.

       Informal Recommendation 3: Embassy Vienna’s tri-mission joint management office
       should review and rewrite the position description 50011, to include key elements needed
       to fulfill the role of a sole joint management office local employee representative at the
       U.S. Mission to the Organization for Security Cooperation and Security in Europe.

Language Designated Positions

        The OIG team found that all language designated positions in embassy sections were
properly classified, with the exception of those in the regional security office. However, in
certifying its current language designated positions in 2010, the embassy did not conduct a
comprehensive survey of all employees encumbering language designated positions to determine
whether language skills were essential for them to conduct their work.

        All four regional security officers are in language designated positions. None of these
officers consider German essential to fulfilling their responsibilities. Most of the section’s work
is conducted in English. The section’s locally employed staff is competent in German and
                                           8
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

English. Moreover, two regional security officers were assigned to Vienna without reaching the
designated level of language proficiency and without a language waiver. It is unnecessarily
costly for the Department to train officers for language designated positions when the language is
not essential.

Recommendation 6: Embassy Vienna, in coordination with Bureau of Diplomatic Security and
the Bureau of Human Resources, should eliminate the language designation for four positions in
the tri-mission regional security office. (Action: Embassy Vienna, in coordination with DS and
DGHR)

Motor Pool

        The JMO motor pool is small and efficient. At present, the motor pool is made up of one
supervisor/dispatcher, three ICASS drivers, three executive drivers, and three program drivers.
The unit could realize savings by having a limited number of drivers and vehicles, eliminating driver
overtime, and monitoring their new taxi card program, which provides 24-hour, 7-day-a-week
service.

Executive Drivers

       Two of the three program drivers were formerly dedicated DCM drivers, but in June 2011,
the Bureau of European and Eurasian Affairs’ Executive Office reaffirmed that DCMs’ official
transportation needs should be met by the ICASS motor pool. Embassies may transfer their
dedicated DCM drivers from the program budget to ICASS. This transfer is difficult, however,
because executive drivers, who are trained in using armored vehicles and defensive driving
techniques, are paid at a higher salary than ICASS drivers.

       Use of motor vehicles is permissible only when public transportation is unsafe or
unavailable, or when using an official vehicle is more advantageous (14 FAM 433.3-1). The
embassy’s DCM and the DCM at USOSCE now use taxi cards, public transportation passes, and
ICASS drivers for their official transportation.

       The tri-mission executive and program drivers do not alternate among their assigned
executives to help reduce hours worked. In addition, executive drivers are on duty more than
40 hours each week, often working more than 10 hours daily. The Department’s safety, health,
and environmental management requirements do not allow motor vehicle operators to work
more than 10 hours each day, nor drive more than 10 hours per day on a daily basis. Driver
overtime in Vienna is not monitored and adjusted to comply with these requirements and
14 FAM 431.2-2 (1).

        The 2007 OIG inspection report of Embassy Vienna recommended that the embassy
should reduce executive driver overtime to meet health and safety requirements. In this 2011
report, the OIG team is reissuing the recommendation to comply with guidelines of the
Department’s Motor Vehicle Safety Management Program.



                                          9
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 7: Embassy Vienna should implement controls so that no driver is on duty
more than 10 hours each day. (Action: Embassy Vienna)

        The executive drivers do not have supervisors within the motor pool. The office
management specialists in the embassy’s, UNVIE’s, and USOSCE’s executive offices approve
their time and attendance. However, the office management specialists are not trained in motor
vehicle driver requirements and safe driving rules, and they do not know how to check trip ticket
reports or reconcile fuel usage with mileage. Motor pool supervisors and dispatchers have the
appropriate knowledge, training, and skills to supervise the executive drivers.

        The 2007 OIG inspection report of Embassy Vienna recommended that all drivers should
report to the motor pool dispatcher and supervisor. In this 2011 report, the OIG team is reissuing
that recommendation.

Recommendation 8: Embassy Vienna should transfer supervisory responsibility for all tri-
mission drivers to the motor pool supervisor. (Action: Embassy Vienna)

Taxi Card Use

       In September 2011, the JMO issued revised guidance regarding its taxi card program.
The program, which will eliminate the high cost of the motor pool, can be successful only if card
holders honor the rules.

        According to the JMO guidance, taxi cards are for official use only and should not be
used for home-to-office or personal transportation. The cards also are not a substitute for the
annual, monthly, or weekly fare passes that provide access to the city’s excellent public transport
system. The cost for the public transport passes is reimbursable, provided the pass is used for
official business transportation, and that the missions’ transportation budgets are adequate.

       Each taxi card holder is responsible for his/her card and may not give or loan it to
anyone. The user must obtain a receipt and turn it in to the point of contact in his/her section.
The JMO financial management center reconciles these receipts with the taxi companies’ billing
statements and provides copies of the taxi company invoices to the points of contact for
reconciliation. The designated points of contact, generally the section heads in each office, are
expected to apply careful scrutiny to taxi card usage. This task is not intended to be the
responsibility of local employees or office management specialists. The OIG team’s review
showed that several users could have taken public transportation between the USOSCE building
and the chancery, but used taxicabs instead. Occasionally, staff used taxicabs for home-to-office
transportation. The JMO guidance clearly specifies that taxi cards are not for home-to-office
transportation.

Recommendation 9: Embassy Vienna should implement standard operating procedures across
all three missions, to verify that taxi cards are not being misused and to impose consequences for
any misuse that occurs, including repayment of funds and loss of card privileges. (Action:
Embassy Vienna)


                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        There is a glut of taxi cards within the tri-mission community. The JMO is planning to
review and reduce the number of card holders. The OIG team endorses such a reduction, as it
will afford the opportunity to provide better scrutiny over the program.

Tri-Mission Housing and Housing Maintenance Services

        The tri-mission community’s complaints about the quality of housing are unfounded.
Housing is attractive, at the high end of the Department’s space standards, and generally within
rental benchmarks. The recently renovated apartments in the U.S. Government-owned Rathaus
Building exceed what many employees assigned overseas enjoy.

        The JMO housing maintenance employees are highly competent. They work diligently
with the facilities management section to schedule make-readies and move newcomers directly
into permanent housing. Unexpected but needed repairs occasionally necessitate assigning
newcomers to temporary duty apartments.

       Residences for the COMs and DCMs are all 80 to 100 years old and require constant,
expensive maintenance and attention. The maintenance burden applies, as well, to the chancery,
and (for now) to the USOSCE building.

        The tri-mission had made several changes to executive housing, such as when residents
exchange official curtains for curtains that meet personal preferences (meanwhile storing the
official curtains improperly and causing damage), or asking for chairs to be warehoused. When
OBO’s residential decorators provide design and furnishings for an executive residence, it is at a
certain cost to the U.S. taxpayer. Furniture in the regular furniture pool was paid for by regular
program funds or through the ICASS budget. Replacing OBO-funded furnishings with furniture
pool furnishings to accommodate personal preference increases the overall cost to the U.S.
Government – and hence, to the U.S. taxpayer.

        Regulations do not authorize redecorating and making unnecessary changes to a
residence to accommodate personal tastes (15 FAM 733.1 and 15 FAM 642 a.). The OIG team
considers constructing butler’s quarters in the COM’s residence at UNVIE an unnecessary
change. Moreover, the project cost more than $36,000 and was not conducted in compliance with
15 FAM 642 a. Regulations also state that the Department does not routinely provide funds for
furniture, furnishings, appliances, and equipment for household staff (15 FAM 724.1).

New Housing Initiative

        The Department has agreed to establish a public-private partnership with an Austrian
developer to construct 130 condominium-style apartments on Embassy Vienna property. Under
the agreement, the embassy has transferred ownership of the land at the upper and lower housing
compounds to the developer who will construct new buildings. In return, the Department will
own 40 of the 130 units. A local architectural and engineering firm will oversee construction.
This partnership is a new concept for the Department.



                                          11
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

         Until the 40 condominiums in the new complex become available, embassy employees
will occupy short-term, leased properties. The JMO general services staff is looking for rental
housing that fits the Department’s size standards and rental benchmarks. There is some doubt
that all 40 units will be ready for occupancy in 2014, which may lead to longer-than-usual
temporary housing assignments for some of the newcomers.

Procurement

        A senior procurement specialist and four staff members are excellent at all phases of
purchasing. They understand supply chain management concepts and the importance of end-to-end
accountability, from the purchase request to purchase order, purchase card transaction, receipt of
purchase, inventory, and invoice payment. Along with the financial management section, they use
the Department Integrated Logistics Management System and the Web-based acquisition
requisition systems.

Shipping

        Tri-mission employees highly rate the shipping staff. Recent changes in transportation
systems have expedited shipments and reduced losses, including the use of the International
through Government Bill of Lading from dispatch agencies to the Bureau of Administration’s
European Logistical Support Office in Antwerp, Belgium (where shipments to European posts
are directed). Once a shipment arrives at the logistical support office, staff members in Antwerp
assign a U.S. trans-shipper who arranges with an Austrian company to deliver an employee’s
property directly to his or her residence.

      Local employees in the shipping section conscientiously assist U.S. employees with
many aspects of settling into Austria, such as registering personal vehicles and complying with
Department procedures for transferring employees to new assignments.

Financial Management

        The JMO financial management center performs strongly and is highly regarded. It
manages allotments that, in 2011, totaled about $37 million. The staff includes some of the
Department’s most senior local employees, who provide the usual vouchering, accounting,
budgeting, cashiering, travel, payroll, and timekeeping services. They also know the Department
regulations and are conscientious about observing required management controls. The unit is
consistently effective in establishing, liquidating, and monitoring obligations.

        Some customers have expressed concern over having limited options for accommo-
dation exchange, which is provided on the compound at two missions by local banks.
Additional personal banking arrangements for employees are not possible at all three
missions, and exceptions for accommodation exchange at the center’s cashier would be
costly to the U.S. Government and unnecessary, given ready commercial services in Austria.

       The financial management center effectively supports its ICASS customers. The OIG
team reviewed the recently declining ICASS scores and notes that the same phrases are used to
                                         12
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

describe dissatisfaction with JMO services. The similarity in wording suggests that people may
have worked together reporting scores, causing the scores to be less than reliable. The financial
services scores on OIG’s workplace and quality of life questionnaire were high, and the section
exceeded all performance standards.

       The JMO financial management center performs duties that are usually performed by
other management sections at other missions. For example, two staff members manage travel
authorizations and vouchers in consultation with the Embassy Bratislava travel contractor.
Difficulties with the travel contract are addressed elsewhere in the report. The section also deals
with taxi card vouchers and time and attendance reporting.

       The financial center is using Department-mandated financial management initiatives. It
processes all financial transactions through the Department’s Regional Financial Management
System, which provides direct electronic access and eliminates the 1- to 2-day delay formerly
associated with processing these transactions.

International Cooperative Administrative Support Services

        The ICASS process in Vienna operates acceptably. However, as noted elsewhere, the
2011 ICASS assessment scores were lower than in previous years, when assessments were at the
top of regional bureau and Department rankings. The management counselor shared the informal
results with the missions’ front offices. The inspection team found that the memoranda on
ICASS scores had not been completed in a timely fashion. The OIG team also found that many
tri-mission employees, new to a tri-mission environment, were not accustomed to the JMO
service paradigm. Because of their misunderstandings about the scope of JMO customers among
the three missions, employees had a tendency to be especially critical about the timeliness of
responses, especially from human resources unit and the CLO.

        The Department’s revised regulations on assessing ICASS effectiveness (6 FAH-5 H-222.3-6
and 7) require posts to report the results of their annual ICASS assessment to the mission leadership.
This assessment, completed no later than June 1st and sent to the Ambassador through the DCM, will
report on specific problems, identify steps to address those problems, and describe what post is doing
well. The assessment must also explain how the assessment results will be communicated to the
ICASS community at post. Although the final assessment was not sent to the DCM until early
November 2011, the leaders of the three missions were well aware of the scores; hence, the late
assessment did not impede the JMO from implementing improvements.

Travel

        In 2007, Tri-Mission Vienna and Embassy Bratislava negotiated a contract with a
Bratislava-based travel management center to provide travel services for both tri-mission and
Embassy Bratislava staff. The contract offered lower costs: $33.50 per ticket (as compared to a
$10,000 monthly charge), as well as volume discounts and rebates.

       Embassy Bratislava did not know about any problems with the joint contract, but the tri-
mission has not always been well served by the travel contractor. Tri-mission travelers may

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

contact the service provider either directly or through the JMO’s financial management unit.
However, employees’ direct contacts with the travel management center often have been
unsatisfactory and have required JMO’s intervention. By contrast, Embassy Bratislava’s travelers
do not contact the service provider directly; their contracting officer’s representative staffs the
embassy’s travel section and manages all staff travel needs directly with the service provider.

        There has been no clarification of the Vienna/Bratislava memorandum of agreement
since 2007. Embassy Bratislava’s management officer agreed to meet with JMO staff to discuss
the partnership, and a meeting was tentatively scheduled for December 2011.

       Informal Recommendation 4: Embassy Vienna’s tri-mission joint management office
       staff should meet with Embassy Bratislava’s travel staff to clarify issues and develop a
       new memorandum of agreement specifying how the contract will work for each entity.

Global Publishing Solutions

        Global Publishing Solutions (GPS) is the Department’s worldwide print and pre-media
services provider. One of GPS’s four regional centers is based in Vienna. GPS Vienna provides
concept development and execution of promotional and outreach materials for posts. It has a
large base of repeat customers, who pay $55 an hour for its services. The office has assisted
overseas missions worldwide for many years.

        GPS Vienna is particularly effective in designing and coordinating production of
publications for the Art in Embassies program. It produces these materials in collaboration with
Art in Embassies staff and the relevant posts, which provide the images and text. After the
customers clear publication proofs online, the office transmits them electronically to the GPS
printing facility in Cairo or Manila.

         The office is staffed by only two local employees, who also design and produce a large
variety of other products, such as invitations, welcome kits, flyers, banners, calendars, mouse
pads, letterhead, etc. This small office is an invaluable resource for the Department, and the
staff’s salaries compare favorably with those of less experienced contractors in the United States.

Information Management and Information Security

       The IM section of JMO provides unclassified and classified support for the tri-mission
community at eight physical locations. The section operates pouch, mail, telephone, radio,
telephone switchboard, and BlackBerry support services for more than 440 users from numerous
agencies. The section also provides diplomatic pouch services for Embassies Bratislava and
Budapest.

        The IM program has been deficient for 2 years, due to both extended and intermittent
staffing gaps in the section, which led to inadequate supervision. The newly arrived IM officer
plans to revive a lapsed practice of regularly rotating personnel among the three missions to
improve continuity in service delivery. The IM officer also plans to introduce cross-training and
will delegate supervisory functions for certain classified services. These changes ought to enable
IM personnel to adjust better to unexpected staffing gaps and turnover, and thereby mitigate any
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED

          adverse impact on service quality. The advantages of cross-training and a formal rotation
          schedule will be tested in summer 2012, when five U.S. employees in the IM section transfer to
          onward assignments.

                  From 2010 through mid-2011, IM personnel did rotate among the three missions, but the
          rotations were ad hoc, because of understaffing. The rotating staff supported immediate needs,
          but they did not develop adequate familiarity with the information technology abilities of the
          users at each mission.

          Recommendation 10: Embassy Vienna should implement a formal schedule for rotating
          information management personnel regularly among the three missions. (Action: Embassy
          Vienna)

                 The information systems center has three locally employed staff vacancies, but it is
          downsizing by advertising to fill only two of them. Meanwhile, the remaining staff is meeting
          the mission’s needs by prioritizing workload, (b) (5)



                 Informal Recommendation 5: Embassy Vienna’s tri-mission joint management office
                 should advertise and fill all vacant information systems center local employee positions.

                  Telephone operators for the tri-mission work from 7:00 a.m. to 7:00 p.m. Three employees
          staff the phones during normal business hours, and one part-time operator works from 3:00 p.m. to
          7:00 p.m. The workload does not justify having three operators during the normal working hours.
          The embassy could save money and make better use of existing resources by eliminating one full-
          time operator position. One of the current incumbents could be trained and reassigned to the
          information systems center, where (as noted above) there are three job vacancies.

          Recommendation 11: Embassy Vienna should eliminate one of the three telephone operator
          positions and train the incumbent to qualify for one of the vacant positions in the information
          systems center. (Action: Embassy Vienna)
(b) (5)




                                                    15
                                        SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        According to 5 FAM 115.6-2 a., posts must establish and maintain a local information
technology change control board. Embassy Vienna established its change control board in 2007,
but the control board has not convened over the past 2 years. (b) (5)



Recommendation 12: Embassy Vienna should reactivate and maintain the local information
technology change control board. (Action: Embassy Vienna)

        UNVIE’s technology infrastructure is sound. The server rack, however, is located under the
air conditioning unit, where condensation can damage it. Both common sense and Department
regulations require protecting computer servers from exposure to water (12 FAM 629.4-2 b.).

Recommendation 13: Embassy Vienna should relocate the server rack at the U.S. Mission to
International Organizations in Vienna to prevent damage to the equipment from air conditioner
condensation. (Action: Embassy Vienna)

       The cables at UNVIE are installed with no consideration to correct routing. The power
cord and communications cables for the server rack are on the floor, where a passerby could trip
over them. The exposed cables present a hazard to both people and equipment.

       Informal Recommendation 7: Embassy Vienna’s tri-mission joint management office
       should reroute the server rack power cord and cables under the floor at the U.S. Mission
       to International Organizations in Vienna.

Dedicated Internet Network

        The JMO has 14 dedicated Internet networks. There is a plethora of contracts associated
with these dedicated networks, resulting in unnecessary costs and an excessive expenditure of staff
time, as employees have to manage numerous contracts. (b) (5)
                                                                           Both the 2007 OIG
report on Embassy Vienna and the Bureau of Diplomatic Security’s 2010 regional computer
security office report also noted this problem and recommended reducing the number of dedicated
Internet networks and registering dedicated Internet networks, pursuant to 5 FAM 872.1.a and
5 FAM 872.2 a, but the embassy has not complied with those recommendations.

Recommendation 14: Embassy Vienna should conduct an inventory of dedicated Internet
networks and consolidate the networks, where possible. (Action: Embassy Vienna)

Recommendation 15: (b) (5)


Information Security

        The information security program is improving. Previously, one person had, among
several duties, the responsibility for the information security program. The IM officer has
designated multiple information systems security officers, each of whom manages a different
                                                  16
                               SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

     portfolio. This arrangement will distribute the workload better and make the program
     manageable.

             The OIG team conducted cyber security penetration tests, monitored the network, and
     verified computer baselines. The inspectors found problems with folder permissions, labeling,
     active directory accounts, server room locks, and antivirus signatures. Tri-mission information
     management personnel mitigated these vulnerabilities during the inspection period.
(b) (5)




                                              17
                                  SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED
(b) (5)




                      18
          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Equal Employment Opportunity
        The Tri-Mission Vienna Web site contains all necessary Equal Employment Opportunity
(EEO) and civil rights and diversity information. It lists the names of the EEO and Federal
Women’s Program coordinators, and lists links to the Department’s EEO and related resources.
The site invites anyone interested in diversity and EEO issues to contact one of JMO’s EEO
counselors.

        The Web site also explains that anyone may seek support from an EEO counselor at any
of the three missions in Vienna, and it confirms that the COMs lend their full support to
employees pursuing concerns and complaints. A new counselor has been trained and designated
for the second EEO counselor position, and the counselor’s name has been sent to the
Department. The three missions have conducted EEO and diversity awareness training, per
13 FAM 312 c. They will continue to provide training as needed.




                                        19
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Tri-mission employees rate the quality of life as generally good. An exception is the
CLO, which received low marks because there is not a strong sponsor program for new
employees, and because the distance between offices and housing makes it hard to attend CLO-
sponsored events. The health unit is excellent. Families are pleased with school options. There
have been problems with bullying at the (b)(5)(b)(6)                      but the school has a zero
tolerance policy and has implemented an anti-bullying program (b)(5)(b)(6)             The
management controls section of this report discusses the American Employees Association at
length.

Community Liaison Office

       Two CLO coordinators and a newsletter editor serve the tri-mission community. Each
employee works 24 hours per week. The editor issues an excellent, weekly newsletter, Tales of
Vienna, which contains original articles about life and activities in Austria. One CLO coordinator
spends one morning per week each at UNVIE and USOSCE.

        The two CLO coordinators, together, work a total of 96 hours per pay period. According
to the Bureau of Human Resources Family Liaison Office, this figure is low for a community the
size of the tri-mission. Increasing the CLO coordinators’ employment hours would improve
service.

Recommendation 21: Embassy Vienna should request the International Cooperative
Administrative Support Services’ board to approve at least 16 additional hours of staff time for
the community liaison office. (Action: Embassy Vienna)

       The CLO coordinators attend country team meetings at the embassy and staff meetings at
UNVIE and USOSCE. They also attend emergency action committee meetings and meet
frequently with the three DCMs.

       An important reason for the CLO coordinators to meet with the DCMs is to inform them
of community morale or other issues that might require a DCM, in the capacity of family
advocacy officer, to take action. According to 3 FAM 1812.3-5, the family advocacy team,
which is in charge of coordinating and reporting on family advocacy issues, is composed of the
family advocacy officer, a Foreign Service medical officer, and the regional security officer.

        The management counselor, who is not a part of the family advocacy team, normally
attends the CLO coordinators’ meeting with the DCM of the bilateral mission. However, CLO
coordinators sometimes need to discuss sensitive issues with the DCM, such as instances of
family violence, which should only be dealt with in the family advocacy team, consistent with
3 FAM 1812.3-1(2). The coordinators could not properly have those conversations with the
management counselor present.

        The CLO coordinators encourage community members to become involved in a variety
of activities for different ages and interest groups, but success is limited. The CLO staff
                                                  20
                                SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

     attributes the tri-mission’s lack of community spirit to widely scattered offices and residences,
     and the fact that there are many attractive activities readily available in Austria and surrounding
     countries.

             The coordinators also struggle to recruit sponsors for new arrivals, a problem that has not
     changed since the last inspection report. The OIG team encouraged the COM to direct the CLO
     coordinators to begin the process of recruiting sponsors as soon as the JMO knows who is
     arriving. It is generally more effective to ask someone to serve as a sponsor than to make a
     general call for volunteers.

     Health Unit

             The tri-mission health unit is clean and attractive, appropriately staffed, and provides
     exceptional medical care. The Foreign Service health practitioner can write prescriptions for use
     at local pharmacies; hence, the unit maintains only a small inventory of prescription and
     nonprescription supplies. Medications are under proper lock-and-key storage. A regional medical
     officer and regional psychiatrist, based in Vienna, travel more than 50 percent of the time to
     serve other embassies. The tri-mission community has a high regard for the regional psychiatrist,
     and families value and respect the local staff. Health care, including pediatric care, is excellent.
     There is no need for medical evacuations for births, given the high-caliber facilities in Vienna.
(b)(5)(b)(6)




     American Employee Association

             The tri-mission American employee association offers a variety of services, although it
     has significant financial difficulties (detailed in Management Controls section, below). The
     association sells logo items, such as shirts and mugs. It charges a membership fee to staff for the
     use of donated fitness equipment, located in the chancery gymnasium and at the Rathaus
     apartments. The association has a drop-off and pick-up service for dry cleaning. It also operates a
     preschool and rents out temporary duty apartments. However, both facilities are on a housing
     compound slated for demolition in 2012; the association has no viable alternative venue for the
     preschool.




                                               21
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        The embassy COM’s annual chief of mission controls statement, dated July 13, 2011,
states that Embassy Vienna’s systems of management controls, taken as a whole, comply with
the Comptroller General of the United States’ standards and the Department’s objectives. Also, it
states that assets are safeguarded against waste, loss, unauthorized use, and misappropriation. It
does not identify any deficiencies in inventory controls. The OIG team found, however, that
there were areas in management controls that need more attention.

Performance Management

        The tri-mission has a system to ensure that raters, reviewers, and rated employees
complete employee performance reviews and work and development plans in a timely manner.
Nevertheless, a number of performance management documents for local staff and eligible
family members are sometimes submitted late, because supervisors disregard their
responsibilities under 3 FAH-2 H-135.5 to complete the documents on time. Human resources
unit staff indicated that required work and development plans are also late. Many retroactive step
increases have been made for locally employed staff because of late evaluations, and these
changes absorb additional resources in administrative work. Also, the performance evaluation
function is important for employee morale and in administering a personnel system. Several
employee performance reviews were late at the time of the inspection.

Recommendation 22: Embassy Vienna should include a work requirement for all tri-mission
supervisors of local staff and eligible family members, to complete employee performance
reviews and work and development plans on time; and it should rate the supervisors accordingly.
(Action: Embassy Vienna)

Time and Attendance

        Supervisors have not managed time and attendance reporting well, and some controls
have not been implemented, such as those for use of overtime. The management counselor is
charged, under 4 FAH-3 H-525.1-2, to establish controls for accurate and timely recording and
reporting of time and attendance. In the current situation, the tri-mission is at risk for
timekeeping errors, misstatements, and irregularities.

        The tri-mission does not have a relevant time and attendance policy and has not recently
evaluated its system. For example, timekeepers did not always transmit approved requests for
leave and documentation of overtime with time and attendance reports; instead, documentation
arrived after the pay period. Contrary to 4 FAH-3 H-523.2, overtime supervisors were not
approving overtime in advance. Also, supervisors signed their own reports, which is against
regulations that require separating time and attendance data from approvals (4 FAH-3 H-523.1).
Further, supervisors were not reporting overtime for local staff on the Department’s form DS-3060
but, rather, on an embassy-prepared form.



                                         22
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 23: Embassy Vienna should conduct and document a management controls
review of its time and attendance system and issue a management notice instructing the tri-
mission on policy and procedures. (Action: Embassy Vienna)

American Employees Association Internal Controls

        The American employees association has not used an appropriate accounting system
since May 2010. The association does not use proper internal controls over most of its assets,
including cash. An outside accounting firm conducted the association’s last audit for the year
ending December 31, 2009, and reported that the association had a net loss of $43,926 on gross
revenue of $107,277. This means that the actual expenditures were more than $150,000. With
these staggering losses, the association has no cash reserves. The financial status of the
association’s activities has been unknown since then, because the organization has not conducted
any accounting or auditing of its condition.

        Without financial information, the association’s board does not have any basis on which
to make decisions and does not know whether its current assets can cover legitimate claims.
Neither the embassy nor the American employees association board has ordered an independent
audit, despite repeated calls for action by the Bureau of Administration’s Office of Commissary
and Recreation Affairs. The association also has not followed requirements for interim financial
reporting and annual audits, as outlined in 6 FAM 557 b.

Recommendation 24: Embassy Vienna, in coordination with the Bureau of Administration,
should require the American employees association to obtain an independent audit of its
financial condition. (Action: Embassy Vienna, in coordination with A)

        The association did not conduct any accounting between May 2010 and March 2011. In
March 2011, the association hired a part-time bookkeeper, who lacks the necessary skills. For
instance, the bookkeeper has not entered into the accounting records more than 7 months of
transactions that took place in 2010, and 20 percent of the 2011 transactions remain unprocessed.
Consequently, the association does not have meaningful accounting records and reports. The
bookkeeper’s approach has been to project cash positions by using the bank’s cash balances, and
to project net cash flows. The board uses the projections to stay informed of operations. These
projections, however, are not a substitute for systematic accounting and analysis.

Recommendation 25: Embassy Vienna, in coordination with the Bureau of Administration,
should require the American employees association to have its independent public accounting
firm provide advice on the qualifications needed to meet bookkeeping and financial reporting
requirements. (Action: Embassy Vienna, in coordination with A)

        The association has no internal controls for cash. It allegedly generates revenue from
the operation of a preschool on the grounds of a tri-mission housing compound, and also from
renting U.S. Government-owned, temporary duty apartments that it operates under its
6 FAM 526 e. authorization. (b)(5)(b)(6)




                                         23
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(b)(5)(b)(6)                     According to the association, it uses the monies collected from
the rentals to pay for preschool expenses. Moreover, OBO is not reimbursed, as required, a fact
that the association did not challenge.

        Board members and the bookkeeper were not cognizant of the requirement under
6 FAM 531 d. to reconcile cash periodically. There is no evidence that the association has
performed bank statement reconciliations. The general ledger balance for cash has not been
established since formal accounting ceased in May 2010. It is unclear how long the association
has been negligent in meeting FAM requirements, because it has been so long since the
association kept any proper accounting.

        Liabilities are set up for many expenses, but it is questionable whether the association
will be able to pay outstanding claims. Examples of unmet liabilities include back U.S payroll
taxes, bills for legal services, and severance payments that have not been accrued for preschool
employees. Under 6 FAM 531.3, employee associations are required to establish a liability for
severance payables and a clearly designated cash fund.

       As noted above, the preschool and the temporary duty apartments will be demolished
when a developer constructs new housing at the location; thus, the association’s major sources of
revenue will end.

        Another financial issue involves the association’s use of the U.S. Government-owned
apartments to generate revenue. In its license agreement, under 6 FAM 526 e., the association is
required to account for the rental program, reimburse OBO for the cost of using the property, and
semiannually deposit profits in excess of 15 percent into the designated OBO X0535004
appropriation. The amount of this liability is unknown, because the association does not keep
track of the number of nights the apartments are rented.

Recommendation 26: Embassy Vienna, in coordination with the Bureau of Administration,
should develop a strategy for the American employees association, with assistance from an
independent public accountant, to determine, schedule, and pay its liabilities. (Action: Embassy
Vienna, in coordination with A)

       The association lacks any controls. It is essential that, after the audit is completed and
accounts have been established, the financial management center assist the association in doing
bank reconciliations, under the provisions of 6 FAM 531.1 and 531.2.

Recommendation 27: Embassy Vienna’s financial management center should assist in
performing the monthly bank reconciliations for all American employees association bank
accounts. (Action: Embassy Vienna)

         According to 6 FAM 514.1 c., the principal officer (or designee) is responsible for
monitoring association activities and ensuring compliance with Department regulations. Given
its dire condition, it is possible that the association could face suspension or even revocation of
its charter (6 FAM 551.1 and 551.2).



                                          24
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Vienna, in coordination with the Bureau of Human Resources,
should modify the work requirements for the tri-mission management officer (position number
50006000) and designate the position as the deputy management officer, adding supervisory
duties to the position and deleting the requirement to serve part-time at each of the missions.
(Action: Embassy Vienna, in coordination with DGHR)

Recommendation 2: Embassy Vienna, in coordination with the U.S. Mission to International
Organizations in Vienna, the U.S. Mission to the Organization for Security and Cooperation in
Europe and the Bureau of European and Eurasian Affairs, should redefine management and
administrative requirements; define evaluating and reviewing performance, and procedures and
processes for the joint management office; and sign a new memorandum of agreement codifying
these operations of the joint management office. (Action: Embassy Vienna, in coordination with
UNVIE, USOSCE, and EUR)

Recommendation 3: Embassy Vienna, in coordination with the Bureau of Overseas Buildings
Operations, should determine the best use of chancery space and recommend changes and moves
that maximize space and minimize cost, consistent with security and information technology
guidelines. (Action: Embassy Vienna, in coordination with OBO)

Recommendation 4: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Vienna, should reevaluate the square footage planned for the proposed communications
center for the U.S. Mission to the Organization for Security and Cooperation in Europe, and
match the square footage to actual needs. (Action: OBO, in coordination with Embassy Vienna)

Recommendation 5: Embassy Vienna, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should eliminate the assistant human
resources officer position, upon departure of the incumbent. (Action: Embassy Vienna, in
coordination with EUR and DGHR )

Recommendation 6: Embassy Vienna, in coordination with Bureau of Diplomatic Security
and the Bureau of Human Resources, should eliminate the language designation for four
positions in the tri-mission regional security office. (Action: Embassy Vienna, in coordination
with DS and DGHR)

Recommendation 7: Embassy Vienna should implement controls so that no driver is on duty
more than 10 hours each day. (Action: Embassy Vienna)

Recommendation 8: Embassy Vienna should transfer supervisory responsibility for all tri-
mission drivers to the motor pool supervisor. (Action: Embassy Vienna)

Recommendation 9: Embassy Vienna should implement standard operating procedures across
all three missions, to verify that taxi cards are not being misused and to impose consequences for
any misuse that occurs, including repayment of funds and loss of card privileges. (Action:
Embassy Vienna)

                                         25
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 10: Embassy Vienna should implement a formal schedule for rotating
information management personnel regularly among the three missions. (Action: Embassy
Vienna)

Recommendation 11: Embassy Vienna should eliminate one of the three telephone operator
positions and train the incumbent to qualify for one of the vacant positions in the information
systems center. (Action: Embassy Vienna)

Recommendation 12: Embassy Vienna should reactivate and maintain the local information
technology change control board. (Action: Embassy Vienna)

Recommendation 13: Embassy Vienna should relocate the server rack at the U.S. Mission to
International Organizations in Vienna to prevent damage to the equipment from air conditioner
condensation. (Action: Embassy Vienna)

Recommendation 14: Embassy Vienna should conduct an inventory of dedicated Internet
networks and consolidate the networks, where possible. (Action: Embassy Vienna)

Recommendation 15: (b) (5)


Recommendation 16: (b) (5)



Recommendation 17: (b) (5)



Recommendation 18: (b) (5)


Recommendation 19: (b) (5)


Recommendation 20: (b) (5)


Recommendation 21: Embassy Vienna should request the International Cooperative
Administrative Support Services’ board to approve at least 16 additional hours of staff time for
the community liaison office. (Action: Embassy Vienna)

Recommendation 22: Embassy Vienna should include a work requirement for all tri-mission
supervisors of local staff and eligible family members, to complete employee performance
reviews and work and development plans on time; and it should rate the supervisors accordingly.
(Action: Embassy Vienna)


                                         26
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 23: Embassy Vienna should conduct and document a management controls
review of its time and attendance system and issue a management notice instructing the tri-
mission on policy and procedures. (Action: Embassy Vienna)

Recommendation 24: Embassy Vienna, in coordination with the Bureau of Administration,
should require the American employees association to obtain an independent audit of its
financial condition. (Action: Embassy Vienna, in coordination with A)

Recommendation 25: Embassy Vienna, in coordination with the Bureau of Administration,
should require the American employees association to have its independent public accounting
firm provide advice on the qualifications needed to meet bookkeeping and financial reporting
requirements. (Action: Embassy Vienna, in coordination with A)

Recommendation 26: Embassy Vienna, in coordination with the Bureau of Administration,
should develop a strategy for the American employees association, with assistance from an
independent public accountant, to determine, schedule, and pay its liabilities. (Action: Embassy
Vienna, in coordination with A)

Recommendation 27: Embassy Vienna’s financial management center should assist in
performing the monthly bank reconciliations for all American employees association bank
accounts. (Action: Embassy Vienna)




                                         27
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
       Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s progress in
implementing the informal recommendations.

Informal Recommendation 1: Embassy Vienna’s tri-mission joint management office should
conduct targeted meetings with tri-mission staff to introduce them directly to the service
providers and to explain their roles and responsibilities.

Informal Recommendation 2: Embassy Vienna’s tri-mission joint management office should
update and revise the locally employed staff handbook.

Informal Recommendation 3: Embassy Vienna’s tri-mission joint management office should
review and rewrite the position description 50011, to include key elements needed to fulfill the
role of a sole joint management office local employee representative at the U.S. Mission to the
Organization for Security Cooperation and Security in Europe.

Informal Recommendation 4: Embassy Vienna’s tri-mission joint management office staff
should meet with Embassy Bratislava’s travel staff to clarify issues and develop a new
memorandum of agreement specifying how the contract will work for each entity.

Informal Recommendation 5: Embassy Vienna’s tri-mission joint management office should
advertise and fill all vacant information systems center local employee positions.

Informal Recommendation 6: (b) (5)



Informal Recommendation 7: Embassy Vienna’s tri-mission joint management office should
reroute the server rack power cord and cables under the floor at the U.S. Mission to International
Organizations in Vienna.

Informal Recommendation 8: (b) (5)




                                         28
                             SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CLO             Community liaison office
COM             Chief of mission
DCM             Deputy chief of mission
EEO             Equal Employment Opportunity
GPS             Global Publishing Solutions
ICASS           International Cooperative Administrative Support Services
IM              Information management
JMO             Vienna Tri-Mission joint management office
OBO             Bureau of Overseas Buildings Operations
UNVIE           U.S. Mission to International Organizations in Vienna
USOSCE          U.S. Mission to the Organization for Security and Cooperation in
                Europe




                            29
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
